CONTROLS OVER ACCESS TO EMPLOYEE
     EMAILS BY SBA MANAG RS




                  Report No. 08-02 

            Date Issued: October 19, 2007 





                             by the
            Office of Inspector General
       U.    Small Business Administration
       U.S. Small Business Administration
       Office of Inspector General


 To    Christine Liu                                               Date:   October 19,2007
             Infonnation Officer

From   Debra S. Ritt
       Assistant Inspector                  for Auditing 

        lSI original 

       Report on Controls over                  to Employee 
   by SBA Managers

             report         the potential risks related to administrative access to
        employee emails and infonnation           applications by Small
        Administration (SBA) managers: and recommends actions to strengthen controls
        over        access.

        On August 29, 2007,     Inspector General notified you that        Office of Disaster
                   (ODA) had                  emails           from an employee who was a
        confidential source to                ofInspector General (OIG) and a
        committee, The employee's emails were                 following a Congressional
                    which the employee, who wished to              anonymous, had submitted
                                ",,,,,,,v>,u., record.


        We would like to work with you to develop appropriate safeguards to prevent
                        of OIG emails and infonnation system applications.         IG     of
        1978 provides that       identity of Federal employees who raise complaints to the
        OIG about their employing                           confidential. The    further
        prohibits acts    retaliation against employees who submit complaints to the
        Management's ability to               confidential employee-OIG
        troubling             about whether agency employees can confidently and
        bring confidential               to the OIG's attention, which undermines
        statutory protections,

        We      with you in your dual          0 f Chief Infonnation Officer and
        Privacy Officer to identifY your procedures for                access and to
                   whether your office had authorized the email retrievals.
        Investigations Division subsequently conducted interviews      ODA
        which highlighted the ability    ODA management to            employee emails
        without            OCIO any justification for such reviews.         was no fonnal
                            OCIO to ",pr"'r..rt"l and    emails to ODA
                                            are summarized below.

RESULTS

      90472, Automated Information Security, (AlS) Program,
InfOlmation Officer (CIO) is                for the development and
    the               program.       CIO is also the        Privacy Officer)        as
such, is responsible      controlling access to        and system applications. In a
            11, 2005, Office Management and                (OMB)                     (M­
05-08),            were           to implement actions to
information. The memorandum stated, "As required by
         Information Security Management           (FISMA),       other
policies,        agency must                                    to protect
information from unauthorized                  disclosure or sharing, and to T'\rr.tp('
associated information systems from unauthorized access, modification, dlsruption
or destruction."        OMB memorandum                   that "[w]hen compliance
 Issues are                     are obligated to take                   to remedy
them."

       on additional interviews and       information obtained
we determined that the Agency lacked clear written guidance
                    Standard                       (SOP) 90 49, Appropriate Use of
SEA's Automated Information                       that emails     subject to
examination in connection with authorized official Agency reviews (e.g.) OIG
investigations,        and inspections, administrative         and'             "
           there is no           on when an administrative inquiry and rev lew
cmails would      considered "authorized," who would be               to       the
        and when centralized approval would be

                  osed that          management
                 approval from or notifying the CIO.
and           were unaware of the circumstances or actions relating to ODA's
review of the             that, as the         Chief         Office, aDA should
have obtained her authorization.        CIa also advised that her office had not
           written          on how                should be

In the absence of controls, such as a            authorization 

guidance       conducting administrative review of employee 

assurance that appropriate safeguards are consistently employed. 

the ability to monitor who is                      emails, the frequency such 

reviews, or the purposes of such reviews. Although           of employee 

may be            m       to detennine whether an employee        violated 



                                            2
                                 or for infonnation         security purposes,
                       creates an environment where employee             be subject
to   LUHkl.",..LHJL                         illegitimate

RECOMMENDATIONS

                                    potential risks from                            access to emails


       1. 	                          to individuals having                        administrator
                              for email retrievals must be  ;;!It'\t'\,1'("\,\1    centrally by


       2,




AG NCY COMMENTS AND OFFICE OF 'NSPECTOR                                                  NERAL
 RESPONSE
 On               14,2007, we provided
 On October 1 2007,             provided
          in Appendix L           agreed with our
 stated that it would prepare an                  directive    October 19, 2007, that
           all        retrieval                approved centrally by the CIO and
                      Counsel (OGe).            and OGe        also     jointly to
                    and authorization        required to access Agency user e-mails.
                's comments were                       audit recommendations.

 We                                     cooperation of ODA          oe10 representatives
                             you       any questions _'-JL","",~L  this report,
                      lEXje.tnp leffBrindle,  '''''''''T''''''    205­




                                              3

~                    	     U.S. SMAll BUSINESS ADMINISTlUTJON                       Appendix 1
~
                                    WASf{INGTON,   D.C. 20416
~/!KJ
oV/STt-t-
         ,,'




 Date: 	       October 10,2007

 To: 	         Debra S. Ritt 

               Assistant Inspector General for Auditing 


 From; 	       Christine H. Liu            [Exemption 6 J 

               Chief Information Officer 



 Subject: 	    Draft Report on Controls over Access to Employee E-mails by SBA Managers ­
               Project No. 07-31


 In reviewing OIG's draft report on "Controls over Access to employee e-mails by SBA
 Managers", our office has begun working with the Office of the General Counsel (OGe) on the
 two OIG recommendations resulting from this report -- for the Agency to put in place policy and
 measures to mitigate potential risks from unauthorized access to individual user e-mail boxes.
 We have asked ODA to comment further on the actual audit findings.


  A. Recommendation 1: Immediately communicate to individuals having system administrator
  rights that requests for e-mail retrievals must be approved centrally by bisJher office.


  SBA Response: The ChiefInformatioD Officer (CIO). in conjunction with OGC) will prepare
  an executive Agency-wide directive for issuance by SBA Deputy or Chief of Staff to require that
  aU e-mail retrieval requests must be submitted to SBA's Chief Information Security Officer
  (elSa) for approval by the CIO and OGC. This directive will go out by October 19, 2007.


  B. Recommendation 2: Revise SOP 9049 to establish appropriate protocols for conducting
  administrative inquiries and reviews of employee e-mails, including identifying the criteria for
  determining whether an e~IDail review would be considered «authorized", and identifying the
  appropriate authorization levels needed before an administrative review is conducted. The SOP
  should also define the respective roles oftbe Chief Privacy Officer (CPO), CIO) and Director of
  Infonnation Security in authorizing access to Agency e-mails and information system
  applications .
        2




                 OGe jointly                                              determining anthorized e-mail
                the appropriate                        lJ"""-"""""" before an                      reVIew




(2) OCIO will work on incorporating   the SOP 90          clear
of the CISO, CPO, the CIO and the OGe in autlllor:1ZlIJlg


This                          authorizing access to e-mail,    not 1..U.J..,.... u.,........
We                  this policy to be drafted             by October


cc: 	       OGe -          Borchert, General Counsel
            OIG~        Brindle, Director
            OCIO     David McCauley,
                              McClam,
                                          U.S. SMALL BUSINESS ADMINISTRATION 

                                                        WASHINGTON,      D.C. 20416 





To:       Debra Ritt
          Assistant Inspector General                         Auditing

From:      Herbert L, Mitchell
           r\.;>;::.v"':, .......   Admll::ustrat~JI   for

           Draft                Project No. 07-31


                                                                with both the recommendations made to
                                                             (CIO), and her responses. We believe that the
                                                                                         of employees'


                the Processing and disbursement Center has indicated that, while
           to insure that loan applicants' privacy rights were protected, they identified
emails from employees \Vithout obtaining the authorization             ClO.
no violations were discovered        the Agency had no policies and               in place.
This was not       in retaliation    any               the employees may have
involved with                        not acted on any of the infonnation,

Until the Agency develops and       policies and            in       to     handJing
    access to employee emails we have instructed all managers to submit such         to
ODA Headquarters      review and a decision by the cra.


                                     6]




        L. Mitchell
                                           REPORT DISTRIBUTION 




Recipient                                                                                                No. of Copies

Office of the Chief Financial Officer 

Attention: Jeffrey Brown ....... .... ........ ................................................ .......... .. ... .. 1 


General Counsel .. .. ... ..... ...... ........... ..... .. ... ........... ........................ ..... ............... .. ... 3 


U.S. Government Accountability Office .... ....... ..... ............................... .. ........ .. .. 2 





                                                                   4

